     INSPECfOR   GE~ERAL




     UNITED STATES INTERNATIONAL TRADE COMMISSION

                             WASHINGTON, D.C. 20436

September 13, 1991


                            PR.OC~
                     AUDl:T OP                POLJ:Cl:ES AND
                           P~ ln'!'ID.N       nm usrrc

Executive Order 12352, which was signed in 1982, required all
Federal agencies to implement major procurement reforms "to ensure
effective and efficient spending of public funds ... " One goal of
the Executive Order was to establish a system in each agency to
manage procurement.

In accordance with a Federal requirement that a detailed evaluation
of agency financial systems shall be conducted on a cyclical basis,
an audit of the USITC procurement policies and procedures was
conducted.   The objectives of this audit were to evaluate the
procurement policies and procedures to identify any areas of non-
compliance with applicable regulations and Commission directives,
improvements to internal controls, or increased efficiency.

The audit was conducted by Cotton & Company in accordance with the
Government Auditing Standards issued by the Comptroller General of
the United States.   The results of their review are presented as
an attachment to this report. The auditors found that the system
of internal accounting control in effect during Fiscal Year 1990
appeared sufficient to meet the objectives of the procurement
system and that, for the items tested, USITC complied, in all
material respects, with the provisions of applicable laws and
regulations.
The auditors did find certain conditions in the internal accounting
control system that, while not individually or collectively
considered material weaknesses, warrant management's attention and
corrective action. The auditors found that the procurement process
could be improved in that:
     Certain aspects of USITC procedural guidance do not conform
     to the Federal Acquisition Regulations;
     Receiving reports were not always completed to indicate that
     goods were actually received or to indicate the quantity
     received;
     Not all USITC Advisory and Assistance Services Checklists were
     properly completed;
     There is no off-site storage of procurement computer data
     files; and
     Excess telephone equipment had not been returned for credit
     or refund after it was determined that the equipment did not
     meet USITC needs.
The auditors also found that controls over USITC's payment process
could be improved in the following areas:
     Inadequate separation of duties for payment vouchers under
     $5,000;
     Procedural weaknesses involving signature cards, date-
     stamping, accounting system entries, and receiving reports;
     Payment procedures were not always followed,      for example
     certifications and approvals were missing;
     A payment was     improperly   made   from   a   prior   year's
     appropriation;
     The exact date when goods or services were received, which is
     needed for compliance with the Prompt Payment Act, could not
     always be determined; and
     Funds were deobligated based upon documentation other than an
     amended purchase order.
Recommendations relating to the findings are presented on pages 12
through 15 of the report.     We recommend that the Director of
Administration take appropriate action to implement those
recommendations which are summarized below:
     Improve the procurement process by revising USITC Directive
     3601; ensure receiving reports are fully and accurately
     completed: properly complete advisory and assistance services
     checklists; arrange for off-site storage; return excess
     telephone equipment; and
     Improve the payment process by separating duties; implementing
     procedural controls: ensuring all invoices for goods and
     services are approved and certified for payment; exercising
     due care in the payment of invoices; obtaining the actual date
     of receipt on the receiving report or invoice; and ensuring
     proper authorization is received prior to deobligating funds.
While the above areas do warrant management's attention, we would
like to recognize that in the entire context, the procurement
process was substantially operating in an efficient and effective
manner.  The Office of Administration has done a commendable job
in improving the procurement process since external management
reviews were completed in December 1986 and January 1989 which
found multiple areas needing improvement.

The Director, Office of Administration agreed with all but two of
the findings and recommendations.   He partially agreed with our
finding on the return of unneeded goods and disagreed with our
finding on separation of duties. In both cases, however, he agreed
to take the recommended corrective action. On pages 10 and 11 of
the attachment, we summarize the Director's comments and provide
our response.   The Director's comments are presented in entirety
as an appendix to the report.
                      TABLE OF CONTENTS



Attachment   Report on the Internal Control Review of USITC's
             Procurement Policies and Procedures

Appendix     Memorandum from Director, Office of Administration,
             dated August 15, 1991, on Draft Report
                                                                     Attachment




                                        REPORT ON THE
                                 INTERNAL CONTROL REVIEW OF THE
                                        UNITED STATES
                                 INTERNATIONAL TRADE COMMISSION'S
                               PROCUREMENT POLICIES AND PROCEDURES




Prepared by:

Cotton & Company
Certified Public Accountants
Alexandria, Virginia
                                 COTION&COMI1\NY
                                       Pt..muc         CERTIFIED           Acx:oUNTANTS
                      100 Sount RoYAL STREET • .Au:xANoluA, VmCINJA 22314 • (703) 836·6701 • TEU:COPIER: (703) 836·0941

DAVID L ConoN, CPA                     BRENDA N. 8uRzENsKJ, CPA                    ROBCRT L fi.EsHER. CPA
Ctww:s HAYWARD, CPA                    MlcHAa. W. GILLESPIIi. CPA                  KeviN P. McFADDflll, CPA
                                                                    May 24, 1991




        Ms. Jane E. Altenhofen
        Inspector General
        United States International Trade Commission
        500 E Street, SW
        Washington, DC 20436

         Dear Ms. Altenhofen:

              We conducted an internal control review of the United States Interna-
         tional Trade Commission's (ITC) procurement policies and procedures in effect
         during Fiscal Year 1990. Our review was limited to controls pertaining to:

                 •       Initiation and award of procurement actions.

                 •       Receipt of goods and services.

                 •       Prompt payment of vendor invoices.

                 •       Obtaining competition to the maximum extent practicable.

                 •       Maintenance of contract and purchase order files and supporting
                         documentation.

                 •       Compliance with applicable laws, regulations, and rules.

                 •       Safeguarding of procurement records, forms, and processing areas.

                 •       Purchase adjustments.

                 •       Accuracy and timeliness of the accounting and recording of
                         procurement transactions.

              We performed our review in accordance with guidelines and standards
         established by the American Institute of Certified Public Accountants, Office
         of Management and Budget, and the U.S. General Accounting Office. Our review
         was more limited than would be necessary to express an opinion on ITC's system
         of internal control taken as a whole.

              ITC's management is responsible for establishing and maintai~ng a system
         of internal accounting control. In fulfilling this responsibility, estimates
         and judgements by management are required to assess the expected benefits and
         related costs of control procedures. The objectives of a system of internal
         control are to provide management with reasonable, but not absolute, assurance
Ms. Jane E. Altenhofen
Page 2


that assets are safeguarded against loss from unauthorized use or disposition
and that transactions and program management activities are executed in
accordance with management's authorization and recorded properly to permit the
preparation of financial reports in accordance with generally accepted
accounting principles and agency policies and ·procedures.

      Because of inherent limitations in any system of internal accounting
control, errors or irregularities may nevertheless occur and not be detected.
Also, projection of any evaluation of the system to future periods is subject
to the risk that procedures may become inadequate as a result of changes in
conditions, or that the degree of compliance with the procedures may deterio-
rate.

     The specific control objectives associated with the ITC procurement
system are as follows:

     •   Procurement policies and procedures should be in accordance
         with existing laws and regulations.

     •   Competition should be obtained to the maximum extent practi-
         cable.

     •   ITC contracting officers' technical representatives should
         monitor contractors' technical performance on a continuing
         basis to provide reasonable assurance that the contractors are
         performing in accordance with contract terms and specifi-
         cations.

     •   The Procurement Division should record and maintain control
         over procurement requests and maintain adequate documentation
         on all procurements.

     Our review, made for the limited purposes described in the first para-
graph of this report, would not necessarily disclose all material weaknesses
in ITC's internal control system. Accordingly, we do not express an opinion
on ITC's internal control system taken as a whole. Based on our review of the
specific procurement system control objectives listed above, however, the
system of internal accounting control in effect during FY 1990 appeared
sufficient to meet the objectives stated above insofar as those objectives
pertain to the prevention or detection of errors or irregularities in amounts
that would be material in relation to procurement system data.

     In addition, generally accepted Government auditing standards require
that financial-related audits include tests of the organization's compliance
with applicable laws and regulations. Compliance with laws and regulations
applicable to the procurement process is the responsibility of ITC's manage-
ment. In connection with the review referred to above, we performed tests of
compliance with certain provisions of the laws and regulations identified in
the Methodology section of the accompanying report.
Ms. Jane E. Altenhofen
Page 3


     Our test results indicate that, for the items tested, ITC complied, in
all material respects, with the provisions of applicable laws and regulations.
Nothing came to our attention with respect to the items not tested that caused
us to believe that ITC was not in compliance ~ith those provisions.

    We conducted the audit fieldwork from April 29 to May 24, 1991.

     We discussed the results of our review with the Director, Office of
Administration; the Director, Office of Finance and Budget; the Director,
Office of Management Services; the Chief, Procurement Division; and other
headquarters personnel responsible for the policy direction and overall
management of the procurement process. The Commission's formal written
response is included in its entirety as an appendix to the report. Ve have
incorporated Commission comments into the report as appropriate.

     The accompanying report describes our review objectives, scope, and
methodology and the resultant findings, conclusions, and recommendations. It
is intended solely for ITC's information and use and should not be used for
any other purpose.

                                      Very truly yours,

                                      COTTON & COMPANY


                                By:     ~      p. ).l t~
                                      Kevin P. McFadden, CPA

Enclosure
                                    CONTENTS

                                                   lAD
  I       INTRODUCTION                              1
         Background                                 1
         Objectives                                 1
         Scope                                      2
         Methodology                                3

 II      AUDIT RESULTS                              5
         Findings                                   5
              Procurement Process                   5
              Payment Process                       7
         Conclusions                                8
         Recommendations                            9
              Procurement Process                   9
              Payment Process                       9
         Commission Comments                       10
Appendix
     Commission's Response




                                               0
                 REPORT ON THE INTERNAL CONTROL REVIEW OF THE
                UNITED STATES INTERNATIONAL TRADE COMMISSION'S
                              PROCUREMENT SYSTEM


                             PART I: INTRODUCTION

     In this part, we discuss study background, objectives, scope, and
methodology.

BACKGROUND
     The United States International Trade Commission (ITC) is an independent
Federal agency with six commis~ioners, a staff of about 500, and a Fiscal Year
(FY) 1990 budget of $38,477,000.

     Congress' basic goal in establishing Federal procurement guidelines is to
assure fair and reasonable prices by promoting competition to the maximum
extent practicable. Federal regulations divide procurements into two size
categories: those over $25,000 and those $25,000 or less. Contract awards
over $25,000 are subject to formal procedures to obtain full and open competi-
tion. This process permits all sources capable of meeting the Government's
needs to compete, unless a specific statutory exception applies. Contract
awards of $25,000 or less are considered small purchases and, to reduce
administrative costs, are subject to less formal and more simplified proce-
dures; they are, however, required to be competed to the maximum practical
extent.

     The Procurement Division (PRD) in the Office of Management Services (OMS)
processes all procurement actions, except for General Services Administration
(GSA) work orders, which are the responsibility of OMS' Administrative
Services Division. ITC procured approximately $6 million in goods and
services in FY 1990. On October 1, 1989, the Chairman delegated procurement
authority to the Director, Office of Administration.(AD) with authority to
redelegate procurement authority at certain dollar levels to the Director,
Office of Management Services (OMS); Chief, Procurement Division (PRD); and
other personnel within PRD. In paragraph 5b(2) of ITC Directive 3603, the
Director, AD, was authorized to delegate procurement authority to designated
credit card holders.

     The Director, AD, in an administrative notice dated February 27, 1990,
delegated procurement authority at certain levels to the Director, OMS; Chief,
PRD; other PRD personnel; and designated credit card holders. This notice
expired February 26, 1991, and had not been reissued as of completion of
fieldwork. Subsequent to our bringing this to the attention of management,
the administrative notice was reissued on June 21, 1991, retroactively
effective as of February 27, 1991.

OBJECTIVES

    Ye conducted this review of ITC's procurement internal control system to

                                      1
identify: (1) noncompliance with applicable laws, regulations, and Commission
directives; (2) improvements needed in internal controls; and (3) areas that
would benefit from increased efficiency. The specific objectives were to:

     •   Evaluate procurement policies and procedures and compliance
         with laws, regulations, and policy.

     •   Determine if purchasing adjustments.are made in accordance with
         policy.

     •    Evaluate the economy and efficiency of the procurement cycle.

     •    Evaluate the control over the receipt of goods and services.

     •    Evaluate the accuracy and timeliness of the accounting and
          recording of procurement transactions.

     •    Determine compliance with the Prompt Payment Act.

     •   Determine if records, forms, and purchasing activities are
         properly safeguarded.

     •    Determine the adequacy of actions taken on prior report find-
          ings.



     Ye conducted our review at ITC headquarters in Yashington,
                                                            .,  D.C., between
April 29 and May 24, 1991. The review focused on the procurement system in
effect and transactions occurring during FY 1990.

    Ye met with PRD representatives regarding:

     •    Procedures to obtain maximum practicable   ~ompetition.


     •    Duties of contracting officers' technical representatives (COTRs).

     •    Processing of contracts, contract modifications, purchase orders,
          and purchase order amendments.

     •   Use of Government credit cards.

     •    Safeguarding and maintaining procurement files, documents, and
          records.

     •    PRD's role and responsibilities.

    Ye met with Office of Finance and Budget (OFB) representatives regarding:

     •   OFB's role and responsibilities.



                                      2
     •       Recording of procurement transactions in the financial manage-
             ment system.

     •   Receipt and payment of vendor invoices.

     We interviewed selected COTRs to determine if they are properly carrying
out their responsibilities for monitoring contractors' technical progress,
including surveillance and assessment of perfo_rmance, and the inspection and
acceptance of all items required by the contract.

     We also met with receiving personnel in OMS to determine if the receipt
of goods and services is being properly administered and how adjustments are
processed.

METHODOLOGY
     We gathered data for our review through structured interviews;
questionnaires; sample tests of procurement documents, invoices, and payment
schedules; and by analyzing other documents and reports identified as
representing input to the procurement system.

     We sampled contract and procurement files and invoices from the following
groups:

                                        Number
                                      Processed            Number
              Activity               in FY 1990           Sampled

    Contracts                             6                  5   0


    Procurements in excess
      of $25,000                         11                 11
    Procurements $1,000 to
      $25,000                           268                 15
    Procurements up to
      $1,000                          2,865                10
    Modifications                        80                 8 (2 are FY 1991)
    Credit card transactions          __lQ                 11 (1 is FY 1991)
     Total                            3.240
                                                           -60


     The major guidelines and operating regulations we used to determine the
adequacy of internal controls and procedures and to assess the degree of ITC's
compliance with the relevant requirements were:

     •       Federal Acquisition Regulation (FAR).

     •       Office of Management and Budget (OMB) Circular A-125, Prompt
             Payment Act.

     •       OMB Circular A-120, Guidelines Eor the Use o£ Advisory and
             Assistance Services.

                                         3
     •   GAO's Polley and Procedures Hanual £or Guidance o£ Federal
         Agencies.

     •   GAO's Audit Guide:   Evaluating Internal Controls ln Computer
         Based Systems.

     •    ITC Policy Directives:

          •    3550:  Property Management: Policies and Procedures
          •    3601:  Contracting and Procurement Polley and
                      Procedures
          •    3601A: Advance Procurement Planning System
          •    3603: Gover.nmentwlde Commercial Credit Card Service

     •    ITC's Procurement Polley and Procedures Guide.

     We conducted our review in accordance with the Comptroller General's
Government Auditing Standards (1988 revision).




                                      4
                    REPORT ON THE INTERNAL CONTROL REVIEW OP THE
                   UNITED STATES INTERNATIONAL TRADE CO~SSION'S
                                 PROCUREMENT SYSTEM



                               PART II: AUDIT RESULTS


        Our findings, conclusions, and recommendations are discussed in this
part.

FINDINGS

     We noted certain conditions in the internal accounting control system
that, while not individually or collectively considered material weaknesses,
warrant management's attention and corrective action. A weakness in internal
accounting control is a condition in which the specific control procedure or
the degree of compliance with the procedure is not sufficient to achieve a
specific control objective. That is, errors or irregularities may occur and
not be detected within a timely period by employees during the normal course
of performing their assigned functions. These conditions are discussed in the
following sections.

Procurement Process

     Every agency or organization generally has a system to procure the goods
and services it needs for the effective operation of its ac~ivities. This
system begins with the identification of a need for items such as supplies,
materials, equipment, rent, utilities, maintenance, printing, and other
services. The system includes the forms, policies, procedures, and controls
to identify sources, arrange for delivery, and receive and inspect the goods
or services.

     Controls over ITC's procurement process can be improved in the following
areas:

1.      Certain aspects of ITC written procedural guidance do not conform to the
        FAR. We observed the need for improved guidance in the following areas:

        •    ITC Directive 3601, Contracting and Procurement Policy and
             Procedures, is not consistent with the recent change to the FAR
             requirements, or the ITC Procurement Policy and Procedures
             Guide. Directive 3601 requires contacting at least 3 sources
             for procurements between $1,000 and $2,500 while FAR paragraph
             13.106b and paragraph B.3.a. of the guide require only that the
             contracting officer determine the price is reasonable. This
             disparity in requirements is not conducive to an effective
             procurement process. Directive 3601 has not been updated since
             the FAR section was revised in July 1990.



                                         5
     •    Information required on delivery tickets, as described in ITC's
          blanket purchase agreements (BPAs), does not include all the
          items cited in FAR paragraph 13.203-l(j). In addition to the
          BPA requirements, the FAR requires delivery tickets to include
          numerous items. BPAs issued by ITC do not require delivery
          tickets to include the following FAR requirements: quantity,
          date of delivery or shipment, and unit price and extension of
          each item. Improper invoicing could result if the necessary
          information is not required of the vendor.

2.   Receiving reports are not always completed to indicate that goods were
     actually received or the quantity received. GAO's Standards for Internal
     Controls in the Federal Government require all significant transactions
     to be clearly documented. In addition, OMB Circular A-125, paragraph 5c,
     specifies that receiving reports will contain item description, quantity
     received, date received, and signature of the receiving official.
     Without the required information, OFB cannot be sure what was received or
     when it was received and may have difficulty complying with the prompt
     payment process. The lack of availability of this information could lead
     to improper, late, or even early payments.

3.   Not all ITC Advisory and Assistance Service Checklists were properly
     completed. For example, in 11 of 12 instances tested, 5 of which were
     covered in a recent OIG review of advisory and assistance services (IG-
     04-91), the Director of Administration's approval was not obtained, as
     required by the instructions provided on the checklist.

     This instruction meets OMB Circular A-120 requirements that the approval
                                                           ~

     for such services be at a level above the organization sponsoring the
     activity. In one instance, the Chairman approved the request but did not
     sign the form as required by the instructions. This instruction also
     meets the additional OMB Circular A-120 requirement that approval is
     required during the fourth fiscal quarter at the second level or higher
     above the organization sponsoring the activity. Failure to obtain
     required approvals may result in expenditure of funds for services that
     are not consistent with management's intentions.

4.   There is no off-site storage of procurement computer data files. In the
     event of a building fire or other catastrophe, procurement data files
     could be lost or severely damaged. The GAO audit guide, Evaluating
     Internal Controls in Computer Based Systems (page 87), specifies that
     copies of critical files, programs, and documentation should be stored at
     an off-site location.

5.   Excess telephone equipment ($4,610) has not been returned by OMS for
     credit or refund approximately 1 year after it was determined that the
     equipment did not meet ITC needs. This denies use of the funds for other
     purposes and could result in additional borrowing costs for the Govern-
     ment. In addition, the longer the unneeded equipment is retained, the
     greater is the opportunity for the equipment to.be misappropriated or
     damaged, and the vendor is less likely to accept the returned equipment
     for a credit or refund. ITC has neither written procedures for the

                                      6
     return of unneeded goods nor set timeframes for accomplishing returns.
     Appropriate ITC policy would be to require the prompt return of equipment
     for which a need no longer exists.

Payment Process

     The payment process involves ensuring that the appropriate goods or
services are actually received and, upon prop~r authorization, payment is made
to the vendor in the correct amount within prompt payment parameters.

     Controls over ITC's payment process can be improved in the following
areas:

1.   An operating accountant is involved in all phases of the invoice payment
     process except for payment vouchers over $5,000, including confirming
     treasury payments. To reduce the risk of error or wrongful acts as well
     as the risk of their going undetected, no one individual should be
     involved in all key aspects of a transaction (GAO's Standards Eor
     Internal Controls in the Federal Government). The operating accountant's
     responsibilities include approving schedules of payment that authorize
     Treasury to make payments to ITC vendors. Without adequate separation of
     duties, errors or irregularities could occur and go undetected.

2.   Certain procedural weaknesses exist in the payment process, as follows:

     •    OFB does not maintain signature cards on personnel authorized
          to certify invoices or sign receiving reports.
                                                            0
     •    OFB does not date-stamp incoming procurement documents.

     •    Procurement documents are not always entered into the account-
          ing system in a timely manner. Yhen this occurs, the month-end
          reports may not be accurate.

     •    Incorrect dates are shown on receiving reports for furniture
          received from vendors through a third-party ITC contractor.

     Procedures need to be developed to ensure that pertinent transactions are
entered into the accounting system in a timely manner and that OFB receives
proper authorization (GAO's Standards Eor Internal Controls 1n the Federal
Government) and accurate receiving information (OMB Circular A-125, paragraph
ln and 5c) prior to processing the invoice for payment. Failure to do so
could result in inaccurate information being provided to cost center managers,
improper payment of invoices, and increased interest cost to the Federal
Government.

3.   Payment procedures were not always followed. We noted the following
     instances where the appropriate procedures were not followed:

     •   Two invoices were paid without certification by an authorizing
         official.


                                      7
         •    Of 11 actions tested in our review of COTR activities, we noted
              1 invoice for $1,000 that was approved for payment by the cost
              center manager, but was not approved by the COTR.

         •    One invoice was paid before it was approved for payment.   (The
              invoice was subsequently approved.)

         •   Payment was made in full for one invoice even though one item
             had not been received at the time of payment. (This item was
             subsequently received.)

         The Finance Division's Standard Operating Procedures, Chapter III C,
         requires that invoices be paid only after proper certifications have been
         obtained, indicating that goods and services have been received. PRD
         instructions to COTRs require that all invoices for payment under
         contracts be approved by the COTR prior to payment of the invoices. The
         failure to follow established procedures could result in improper
         payments.

4.       One payment for contractor travel expenses was not applied to the appro-
         priate purchase order, resulting in the payment being improperly made
         from the prior year's appropriation. In addition, the payment exceeded
         the line item price in the proper purchase order and the total purchase
         order amount was exceeded by $191.09. GAO instructions require that
         transactions be correctly classified and properly recorded (GAO's Policy
         and Procedures Hanual, Title II, Appendix III, page 2-5, 1st paragraph).

5.       In 8 of 17 invoices tested for compliance with the Prompt Payment Act, we
         could not determine the exact date when goods or services were received.
         To determine when the payment for goods or services should be processed,
         the exact date of receipt should be shown on the receiving report or
         certified invoice (OMB Circular A-125, paragraph 5c). Failure to know
         the precise date of receipt could result in invoices being paid prior to
         the time prescribed for prompt payment by OMB Circular A-125.

6.       OFB deobligated funds for a purchase order upon receipt from OMS of a
         receiving report that indicated the order was canceled. The deobligation
         should have been based on an amendment to the purchase order, which is
         the official document for this type of action. ITC does not have a
         written policy applicable to the cancellation of purchase orders.
         Obligation information must be reported promptly and accurately (GAO's
         Policy and Procedures Hanual, Title II, page 60, paragraph .04). The
         absence of a written policy for deobligating funds when an order for
         goods or services is canceled, coupled with payments being made without
         proper authorization (as previously described), presents the opportunity
         for payments to be made for goods or services that are not received by
         ITC.
CONCLUSIONS

     Our review disclosed no material findings pertaining to the procurement
and payment systems. Both processes appear to meet the needs of ITC manage-
     /
                                          8
ment in accord with its policies and applicable laws and regulations, in all
material respects. As noted in this report, however, we observed certain
areas where the processes could be improved.

RECOMMENDATIONS

     Our recommendations to strengthen ITC's internal controls are presented
below.

Procurement Process

1.   The Chief, PRD, should revise ITC Directive 3601 as it relates to the
     method for determining a reasonable price for procurements of $2,500 or
     less, to make it consistent with the recent change to the FAR require-
     ments and the ITC Procurement Polley and Procedures Guide. The Chief
     should also revise the BPA instructions to vendors to require delivery
     tickets to contain all pertinent information as specified in the FAR.

2.   The Director, OMS, should ensure that receiving reports are fully and
     accurately completed to provide a complete record of what was received,
     when it was received, who received it, and the condition of the goods
     received.

3.   The Chief, PRD, should ensure that advisory and assistance services
     checklists are properly completed.

4.   The Chief, PRD, and the Director, Office of Information Resources Manage-
     ment, should coordinate arrangements for off-site stor~ge of critical
     computer files, programs, and documentation.

5.   The Director, OMS, should take immediate action to return and obtain a
     credit or refund for telephone equipment that exceeds ITC's requirements.
     The Director, OMS, should also develop and implement procedures for
     return of unneeded goods (including the establishment of reasonable
     timeframes).

Payment Process

1.   To provide proper separation of duties, the operating accountant should
     not be authorized to certify the SF 1166, Voucher and Schedule of
     Payments.

2.   Controls related to the procedural weaknesses we observed in the payment
     process can be strengthened by the following actions:

     •    The Chief, FD, should maintain signature cards for personnel
          authorized to sign receiving reports and certify invoices for
          payment. The signatures on these documents should be compared
          to those on the signature cards. The signature cards should be
          periodically updated to reflect current authorizations.



                                      9
     •    OFB should date-stamp incoming procurement documents and ensure
          timely entry into the accounting system.

     •   The Director, OMS, should establish procedures to ensure that
         receiving reports for equipment received through a third-party
         ITC contractor reflect the date the contractor receives the
         property from the vendor. For prompt payment purposes, this is
         the date ITC receives the property_.

3.   Prior to the payment of invoices, the Chief, FD, should ensure that all
     invoices for goods and services are approved and certified for payment,
     and that all receiving reports are accounted for and completed before
     payment is made.

4.   The Director, OFB, should inform the appropriate ITC officials (e.g.
     COTRs and technical points of contact) that they are to adhere to the
     existing approval procedures so that all invoices are paid in an appro-
     priate manner and on a timely basis. The Director should also exercise
     due care in the payment of invoices to ensure that invoices are pald in
     the proper amount, from the correct funding source, and with proper
     authorization.

5.   The Director, OFB, should require certifying officials to indicate the
     actual date of receipt of goods or services on the receiving report or
     invoice.

6.   OFB should ensure it has received a proper authorization document prior
     to deobligating funds. The Chief, PRD, should develop and distribute a
     written policy covering the process used to cancel a purchase order, BPA,
     or contract and deobligate funds.

COMMISSION COMMENTS

     The Office of Administration (Office) responded to each of our recommen-
dations. The response is included in its entirety in the appendix. The
Office agreed with all but two·recommendations. It only partially agreed with
one (Procurement Process Finding No. 5) and disagreed with another (Payment
Process Finding No. 1). In both cases, however, it agreed to take the
recommended corrective action. In the section that follows, we summarize the
Office's comments and provide our response related to Procurement Process
Finding No. 5.

     Overall, the Office has initiated improvements in its procurement
policies and procedures based on our recommendations. These actions should
result in an improved procurement process.

Procurement Process

     The Office partially agreed with our recommendation to return and obtain
credit or a refund for unneeded telephone equipment. The Office explained
that the materials in question had been held as backup equipment during a
multi-year transition to a more efficient telephone system. It added that it

                                      10
                                                    :--
                                               -.   _._,.




had arranged with the vendor to return any unneeded_equipment for &.credit-at
the appropriate time. (Included in the Office's comments was a.copy of-a July
1991 statement evidencing the return of telephone equipment for credit.)

     On May 16, 1991, the OMS management analyst involved with the transaction
informed us that ITC had experienced maintenance problems during the
installation phase and users were not satisfied with certain components. A
decision was made to return the equipment in August 1990. The contracting
officer amended the purchase order to delete it. At the time of our review,
however, it had yet to be returned.

     Based on this information, there were plans to return the unwanted
equipment long before it was actually returned. This increased the likelihood
that the vendor would not accept the returned goods for credit. Ve continue
to be of the opinion that OMS needs procedures for returning unwanted goods.
These procedures should include timeframes for making returns.




                                                            0




                                                            ·-.--   - -




                                     11
                                                                                   Appendix

                                                                                 AD-0-526


- - - - · - - - - - - - - - · - ·-   ·------   -------------   - - - - - · - --·----------

UNITED STATES INTERNATIONAL TRADE COMMISSION

                             \VASHINGTO!\. DC 20436




 August 15, 1991


 KEMORARDUM


  TO:              Inspector General

  FROM:            Director, Office of             Administrati~,~~
  SUBJECT:         Draft Report, "Audit of Procurement Policies and
                   Procedures Within the USITC 11

  As requested by your memorandum dated July 16, 1991
  (IG-0-064), submitted herewith is the Office of Administration's
  response to the subject draft audit report issued July 1991. In
  accordance with Section 11 of the USITC Directive 1701, the
  Commissioners have had an opportunity to comment on the response and
  the Acting Chairman has approved it.

  The Office of Administration for the most part agrees with the audit
  recommendations. The attached response includes the action to be
  taken and the target completion dates.

  The Office of Administration appreciates the credit you have
  recognized in your statement concerning the considerable improvement
  it has made to the procurement process following earlier external
  management reviews.

  Please call me at 205-3131 or Bill Stuchbery at 205-3135 if you have
  any questions.


  Attachments

  cc:      Director, Office of Finance and Budget
           Director, Office of Management Services
           Chief, Procurement Division
           Chief, Finance Division
                 AUDIT OF PROCUREMENT POLICIES AND PROCEDURES

                      OFFICE OF ADMINISTRATION'S COMMENTS



                              PROCUREMENT PROCESS

1.   Recommendation

The Chief, PRD should revise ITC Directive 3601 as it relates to the method
for determining a reasonable price for procurements of $2,500 or less, to make
it consistent with the recent change to the FAR requirements and the ITC
"Procurement Policy and Procedures Guide." She should also revise the BPA
instructions to vendors to require delivery tickets to contain all pertinent
information as specified in the FAR.

Response

AGREE

As is provided for in the FAR, the Chief, PRD has determined that three is the
optimum number of bids when possible. She was awaiting a more comprehensive
rewrite of ITC 3601 to make this change. After this change is made, PRD
Desktop Procedures will be amended to reflect the desire to obtain three bids
where possible.

TARGET COMPLETION DATE:   December 1, 1991



2.   Recommendation

The Director, OMS should ensure that receiving reports are fully and
accurately completed to provide a complete record of what was received, when
it was received, who received it, and the condition of the goods received.

Response

AGREED

The Chief, PRD has already accomplished the appropriate changes to Procurement
Division procedures to implement the recommendation.

STATUS: Completed
The Director of Administration amended this response on. 9/10/91 to state that
appropriate changes will be made by 12/1/91.
3.   Recommendation

The Chief, PRD should ensure that advisory and assistance services checklists
are properly completed.
Response

AGREE

The Chief, PRD has taken steps to ensure that the few advisory and assistance
requests are carefully handled.

STATUS:    Completed

4.   Recommendation

The Chief, PRD and the Director, Office of Information Resources Management
should coordinate on arrangements for off-site storage of critical computer
files, programs, and documentation.

Response

AGREE

The Procurement Division is coordinating with the Office of Information
Resources Management to provide for the immediate restoration of procurement
capability in an emergency. Arrangements are being made to capture and
transport backup media.

TARGET COMPLETION DATE:   September 30, 1991



5.   Recommendation

The Director, OMS should take immediate action to return and obtain a credit
or refund for telephone equipment that exceeds ITC's requirement. The
Director, OMS should also develop and implement procedures for return of
unneeded goods (including the establishment of reasonable timeframes).

Response

PARTIALLY AGREE

The auditors correctly set forth the concept that unneeded equipment should be
returned for credit. In each case where OMS staff finds itself in possession
of unnecessary materials, the situation is brought to the attention of OMS
management. The issue here is whether management failed to exercise due care
in this particular case by failing to return unneeded materials thereby
causing fiscal harm.

Administration attempted to explain to the auditors that the materials in
question were being held as backup equipment during the ITC's multiyear
transition to a more efficient telephone system, and that appropriate
arrangements had been made with the vendor to obtain the credit when
appropriate.

With the Acting Chairman's recent June 1991 approval of equipment to complete
the system transition, the return for credit has been consummated (copy
attached). It should be noted that OMS staff was able to return additional
used equipment at the same time for a credit exceeding the original amount.

STATUS:    Completed



                                PAYMENT PROCESS


1.     Recommendation

To provide proper separation of duties, the operating accountant should not be
authorized to certify the SF 1166, Voucher and Schedule of Payments.

Response

DISAGREE, however we will comply with the audit recommendation.

Current procedures provide for the operating accountant or the Chief of the
Finance Division to certify payments below $5,000, and for the Director,
Office of Finance and Budget to certify all payments for $5,000 and above. In
addition, at the end of each month the Director, Office of Finance and Budget
randomly selects and reviews a sample of all payments made during the previous
month. These procedures were instituted in agreement with the accounting firm
of Arthur Anderson & Company during its audit of the Commission's FY 1987 and
FY 1988 financial statements to provide reasonable assurance against fraud,
waste and abuse. We still believe that these procedures provide adequate
safeguards. However, in order to comply with this audit report
recommendations the Chief of the Finance Division will certify all payments
below $5,000. The Director, Office of Finance and Budget will continue to
certify all payments for $5,000 and above and review a sample of all payments
made (even though these controls were not recommended in the current audit we
feel that they should remain in place). The operating accountant will remain
authorized to certify payments below $5,000 if the Chief of the Finance
Division is not available. All payments certified by the operating accountant
will be reviewed by the Chief of the Finance Division.

TARGET COMPLETION DATE:   September 30, 1991



2.a.     Recommendation

The Chief, FD, should maintain signature cards for personnel authorized to
sign receiving reports and certify invoices for payment. The signatures on
these documents should be compared to those on the signature cards. The
signature cards should be periodically updated to reflect current
authorizations.

Response

AGREE.
There are a limited number of persons authorized to sign receiving reports and
certify invoices, and in an agency the size of the Commission we can quickly
recognize these signatures. However, while we do not believe that there is a
problem in this area, we will comply with the audit recommendation. The Chief
of the Finance Division will design an applicable form and maintain a file of
those authorized to approve receiving reports and invoices.

TARGET COMPLETION DATE:   September 30, 1991



2.b.     Recommendation

OFB should date-stamp incoming procurement documents and ensure timely entry
into the accounting system.

Response

AGREE.

Finance Division operating procedures has provided for date stamping all
incoming invoices,_bills, travel voucher, etc., but not internal obligating
documents coming from the Procurement Division. These operating procedures
have been modified to include date stamping of all incoming documents.

To the best of our knowledge all documents are entered into the accounting
system timely. We believe further action is not required on this
recommendation.

TARGET COMPLETION DATE:   Completed



2.c.     Recommendation

The Director, OMS should establish procedures to ensure that rece1v1ng reports
for equipment received by a third party ITC contractor reflect the date the
contractor receives the property from the vendor; for prompt payment purposes,
this is the date the ITC receives the.property.

Response

AGREE

Appropriate communications have been arranged with the single vendor involved.
Appropriate language will be added to the Blanket Purchase Agreement (BPA)
establishing the service relationship.

TARGET COMPLETION DATE:   September 30, 1991



3.     Recommendation
Prior to the payment of invoices, the Chief, FD, should ensure that all
invoices for goods and services are approved and certified for payment, and
that all receiving reports are accounted for and completed before payment is
made.

Response

AGREE.

The Chief of the Finance Division has discussed these requirements with
Finance Division staff and will follow-up with periodic meetings. These
requirements are included in the Finance Division's standard operating
procedures, and the Chief of the Finance Division will ensure compliance
through staff meetings and review of the payment documents.

TARGET COMPLETION DATE:   Completed



4.   Recommendation

The Director, OFB, should inform the appropriate ITC officials (e.g. COTR's
and technical points of contact) that they are to adhere to the existing
approval procedures so that all invoices are paid in an appropriate manner and
on a timely basis. The Director should also exercise due care in the payment
of invoices to insure that invoices are paid in the proper amount, from the
correct funding source, and with proper authorization.

Response

AGREE.

The Director, Office of Finance and Budget, has reminded appropriate officials
of approval procedures. The Chief, of the Finance Division has reminded
Finance Division staff of these requirements and will ensure compliance
through review of the work performed.

TARGET COMPLETION DATE:   Completed



5.   Recommendation

The Director, OFB, should require certifying officials to indicate the actual
date of receipt of goods or services on the receiving report or invoice.

Response

AGREE

For the receipt of services (consultant reports, language translations, etc.)
dates of receipt and acceptance are supplied by appropriate certifying
officials. To ensure the best possible information, a revised stamp is being
procured to require certifying officials to insert two dates so that payment
can be made: one reflecting the "date of receipt of the service"; and a second
date reflecting the "date of acceptance of the service or approval of the
invoice".

For receipt of goods (supplies, equipment, etc.) appropriate dates of receipt
have been, and continue to be, reflected on the receiving reports. Certifying
officials, such as Cost Center Managers, are authorizing the payment of funds
from their Cost Center Budget Allocation and for the most part we do not rely
on the date of their approval for the date of receipt. However, for
simplicity, the new date stamp described above will also be used for Cost
Center payment authorization on goods received as well as for services.

TARGET COMPLETION DATE:   September 30, 1991



6.a.     Recommendation

OFB should ensure it received a proper authorization document prior to
deobligating funds.

Response

AGREE.

As an interim measure until appropriate procedures are agreed upon OFB will
advise PRD of complete document deobligations as they are made during the
fiscal year.


TARGET COMPLETION DATE:   Completed



6.b.     Recommendation

The Chief, PRD, should develop and distribute a written policy covering the
process used to cancel a purchase order, BPA, or contract and to deobligate
funds.

Response

AGREE

The Chief, PRD, will accomplish the recommended action regarding the
development of an acquisition document cancellation policy. The Procurement
Division and the Office of Finance and Budget have recently developed the
proper procedures and activities to be accomplished in the deobligation of
funds.

TARGET COMPLETION DATE:   December 31, 1991
                                                       Notrf'HRnN        TEJ,J~COH
                                                     TF.I.EJ'IION~   F.QUIPIIF.NT
                                                            JH~TIJRN~J>     TO:

                                                DEJ.l.. ATI.ANTJC HARI-:JIOIJ:;J-:
                                                        0507.A Tyco Rn:ul
                                                V.i~nnn,      V:i.q~ird.n /.2)11/.
                                                    ATTN:      Brenda Thomn.fj


                                                    l'r.iclny, .July 17., 1991


     tJni ty Cont ro llrn·~      -   Ar.h                            9     @      $/.lrl.l16      -·      $ 2 • 55'• • 7 ,,

     llnity Controllen; - nl;ack                                     ,,    @      $21U. 86                $1' 135 ·''''
     llnl t:y Con t ro 11 n r· I Ach Inns   - Ash                 1'•      @      $11/.10                 $2 ''•79 ·'•0
     Unity III       -   Ash                                      28       @      $fiJ.91        ~
                                                                                                          $1.71.19   ·''0
    lfn:i.ly I l l   -   nl~ck                                       6     @      $6].91         =          $3133. '•6

         1'C>'J'AJ.--------·-·--·-:-----------·----·------------·--··----- --···-$8, 3'•2. 52




    neturned
                c- \ Q                         c· .) (,:) Q() ,_. .
                  By.!-_:::_~-~-~==- ~ ~~::lJ___\&J.~ ,._~··;,-\)-
                         Carolyn A. tio~ley, U11nnr.a~mnt Ann.ly~:t
                         U.S • .tnl.nrnRtional Trncl~ Commission
                                                                                               Drt I.e:    _j_(_:_/_ c~? -    9!
                         Off:i.ce o[ l11.1tlll8ement Snrvic:es
                         Admlnistr~tive Scrviccr. Division
                         500 E Sl:reet, SW, Room 201
                         Washington, IJC 20'•36


    neceived ny: ___             L'$.lll~MdA fjd7'(Q/J                                      Date:         _2_-//;2-9/
                 Dreudn Thomas
                 8P.l1. At: Jnnt:i.c
                 tJ502A Tyc:o Road                                                                                                    \
                 Viennn, Virginia               /./.Jfl~
                                                                                                                                       '-


'




                                                                                                                                   ......
